<html>
<title> - A REVIEW OF THE PRESIDENT'S FY 2014 BUDGET REQUEST FOR SCIENCE AGENCIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                  A REVIEW OF THE PRESIDENT'S FY 2014 
                  BUDGET REQUEST FOR SCIENCE AGENCIES

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       WEDNESDAY, APRIL 17, 2013

                               __________

                           Serial No. 113-19

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
80-558                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d1b6a1be91b2a4a2a5b9b4bda1ffb2bebcff">[email&#160;protected]</a>  


              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
Thomas Massie, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY


                            C O N T E N T S

                       Wednesday, April 17, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     5
    Written Statement............................................     6

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................     7
    Written Statement............................................     8

                               Witnesses:

Hon. John Holdren, Director, Office of Science and Technology 
  Policy, Executive Office of the President
    Oral Statement...............................................    10
    Written Statement............................................    12

Discussion.......................................................    28

             Appendix I: Answers to Post-Hearing Questions

Hon. John Holdren, Director, Office of Science and Technology 
  Policy, Executive Office of the President......................    61

            Appendix II: Additional Material for the Record

Letter to Hon. Dana Rohrabacher, Chairman, Subcommittee on 
  Oversight and Investigations, Committee on Foreign Affairs, 
  From Charles F. Bolden, Jr., Administrator, National 
  Aeronautics and Space Administration...........................    76


                  A REVIEW OF THE PRESIDENT'S FY 2014
                  BUDGET REQUEST FOR SCIENCE AGENCIES

                              ----------                              


                       WEDNESDAY, APRIL 17, 2013

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:07 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Smith. The Science, Space, and Technology 
Committee will come to order. I would like to welcome everyone 
to today's hearing, a Review of the President's Fiscal Year 
2014 Budget Request for Science Agencies. I will recognize 
myself for an opening statement and then the Ranking Member.
    The topic of today's hearing is the President's budget 
request for the coming year. It is the first of several 
hearings to examine the $40 billion in annual federal R&D 
spending within the Science Committee's jurisdiction. Each 
Subcommittee will examine the request for the science agencies 
under their jurisdiction in the coming weeks.
    However, at the outset of this series of hearings, I would 
like to say that these budget hearings are about something far 
more important than simply numbers on a ledger. The budget 
choices for federal research and development investments we 
choose will affect research and technology for many decades to 
come.
    This Committee was first created in 1957 in response to the 
threat of the Soviet Union's launch of Sputnik. At that time, 
Americans were fearful of what this small spacecraft 
represented. The threats we face today are far more diverse and 
complicated. But in many ways, the same fundamental concern 
remains today as when this Committee was first created: Is 
America still a leader in science, space, and technology or are 
we falling behind? How does America stay ahead in the race for 
global competitiveness? How can we measure the benefits of such 
research investments when the payoff might be many years later? 
And how can American innovators better leverage these Federal 
Government investments to benefit the American people?
    These questions are the prism through which the President's 
budget request and Congress' policy and budget decisions must 
be viewed. It is less a matter of dollars and cents, but more 
about finding common-sense solutions.
    Here are some of the decisions this Committee faces with 
the President's budget before us.

    <bullet> LToday, the United States pays Russia $63 million 
to take each of our astronauts to the International Space 
Station we built with the now-retired Space Shuttle. How best 
can we develop the new systems to once again launch American 
astronauts on American rockets? How can we better utilize the 
research capabilities of the International Space Station over 
the next decade?

    <bullet> LBeyond low-Earth orbit of the Station, where are 
the next destinations for our astronauts to explore? Is it an 
asteroid, as the President suggested three years ago? Or is the 
Earth's Moon a more compelling place for American astronauts to 
return rather than finding an asteroid to pull into the Moon's 
orbit?

    <bullet> LIn his inaugural address last January, the 
President spoke briefly about climate change and the 
``overwhelming judgment of science.'' His budget proposes $2.7 
billion spread across 13 different federal agencies for climate 
science. How does this high level of spending affect other 
research priorities? Is some consolidation of research effort 
needed here?

    <bullet> LToday, China and other countries are using the 
very same Internet computer connections America invented and 
built over decades to spy on high-tech American companies and 
laboratories to gain our know-how and intellectual property. 
They might even attempt to cause physical damage using the 
computer systems that drive our society today. What is the best 
way to defend against cyber attacks and intrusions?

    These are only a handful of the decisions before us as we 
consider the President's fiscal year 2014 budget request for 
federal research and development. American ingenuity and 
perseverance in the face of adversity is what makes our country 
great. We have many challenges before us--technological, 
scientific, and budgetary--but we will face them with the same 
determination Americans have in our past.
    And that concludes my opening statement. And the 
gentlewoman from Texas, Ms. Johnson, and the Ranking Member of 
the Committee is recognized for her opening statement.
    [The statement of Mr. Smith follows:]

      Prepared Statement of Full Committee Chairman Lamar S. Smith

    The topic of today's hearing is the President's budget request for 
the coming year. It is the first of several hearings to examine the $40 
billion in annual federal R&D spending within the Science Committee's 
jurisdiction.
    Each Subcommittee will examine the requests for the science 
agencies under their jurisdiction in the coming weeks. However, at the 
outset of this series of hearings, I would like to say that these 
budget hearings are about something far more important than simply 
numbers on a ledger. The budget choices for federal R&D investments we 
choose will affect research and technology for many decades to come.
    This Committee was first created in 1957 in response to the threat 
of the Soviet Union's launch of Sputnik. At that time, Americans were 
fearful of what this small spacecraft represented.
    The threats we face today are far more diverse and complicated. But 
in many ways, the same fundamental concern remains today as when this 
Committee was first created: Is America still a leader in science, 
space, and technology, or are we falling behind? How does America stay 
ahead in the race for global competitiveness? How can we measure the 
benefits of such research investments when the payoff might be many 
years later? And how can American innovators better leverage these 
Federal Government investments to benefit the American people?
    These questions are the prism through which the President's budget 
request and Congress's policy and budget decisions must be viewed. It 
is less a matter of dollars and cents, but more about finding common-
sense solutions.
    Here are some of the decisions this Committee faces with the 
President's budget before us: Today, the U.S. pays Russia to take each 
of our astronauts to the International Space Station we built with the 
now-retired Space Shuttle. How best can we develop the new systems to 
once again launch American astronauts on American rockets? How can we 
better utilize the research capabilities of the International Space 
Station over the next decade?
    Beyond low-Earth orbit of the Station, where are the next 
destinations for our astronauts to explore? Is an asteroid the next 
destination, as the President suggested three years ago? Or is the 
Earth's Moon a more compelling place for American astronauts to return 
to, rather than finding an asteroid to pull into the Moon's orbit?
    In his inaugural address last January, the President spoke briefly 
about climate change and the ``overwhelming judgment of science.'' His 
budget proposed $2.7 billion spread across 13 different federal 
agencies for climate science. How does this high level of spending 
affect other research priorities? Is some consolidation of research 
effort needed here?
    Today, China and other countries are using the very same Internet 
computer connections America invented and built over decades to spy on 
high-tech American companies and laboratories to gain our know-how and 
intellectual property. They might even attempt to cause physical damage 
using the computer systems that drive our society today. What is the 
best way to defend against cyber attacks and intrusions?
    These are only a handful of the decisions before us as we consider 
the President's FY 2014 budget request for federal research and 
development. American ingenuity and perseverance in the face of 
adversity are what make our country great. We have many challenges 
before us--technological, scientific, and budgetary--but we will face 
them with the same determination Americans have in our past.

    Ms. Johnson. Thank you very much and good morning. And 
welcome, Dr. Holdren. It is good to have you back before the 
Committee and as we begin to digest the President's fiscal year 
2014 R&D budget proposals.
    I am pleased that the President remains committed to 
prioritizing investments in research and development and STEM 
education in his request. Even in these fiscally challenging 
times, we must set priorities, and there are few more important 
investments that we can make for our Nation's brainpower.
    The scientists, engineers, and innovators of today make 
discoveries and develop technologies that generate whole new 
industries and jobs, improve the quality of life and the 
security of our citizens, and keep our Nation thriving in a 
competitive world economy. They also help to give our children 
the grounding in science and technology they will need to 
become the innovators of the future or simply to be prepared 
for the highly skilled jobs of the future.
    Specifically, I applaud the President's continued 
commitment to keeping the budgets of NSF, NIST, and DOE's 
Office of Science on sustained, upward trajectories initiated 
in the America COMPETES Act. These agencies, among others, help 
to ensure our long-term economic growth through their support 
for cutting-edge, basic research and STEM education.
    I am also pleased with the Administration's increased 
support for advanced manufacturing. The last few years have 
proven that we cannot be just a service economy and continue to 
grow. We must also maintain a strong base of American 
manufacturing. While we will have questions about some of the 
specific initiatives as we proceed with the series of agency 
budget hearings, I firmly believe that the key to maintaining 
and rebuilding our manufacturing capacity is through strategic 
investments in advanced manufacturing R&D and workforce 
development.
    I also support the increased funding for the U.S. Global 
Change Research Program. Scientists are telling us that the 
climate is changing, and I do not understand why some of us 
keep fighting that. The significant increase in extreme weather 
events across the globe--it snowed in Texas last week, as it 
was 80 degrees here in recent years and the empirical records 
of increased global temperatures and greenhouse gas 
concentration should be evidence enough. I hope we act before 
it is too late to direct our Nation's great brainpower to 
developing solutions to reduce the warming and mitigate the 
impacts of our most vulnerable communities.
    At the same time, I am concerned that in a number of cases, 
agencies are being given increased responsibilities without 
being provided the necessary additional resources. NASA is a 
case in point, with some climate responsibilities previously 
assigned to NOAA being shifted to NASA without the out-year 
budget being adjusted accordingly. In addition, NASA is now 
being asked to carry out an ambitious asteroid retrieval 
mission which, while making use of some existing projects, will 
clearly also require significant new development work to be 
undertaken.
    In both of these cases, is the Administration going to 
provide to NASA the additional resources required to 
successfully carry out the mandates that have been given, or is 
it going to require NASA to cannibalize other important 
activities?
    And finally, I want to address the Administration's 
sweeping proposal to reorganize federal STEM education 
programs. I support the Administration's effort to develop a 
coherent vision and strategy for federal investments in STEM. I 
firmly believe in a federal role in STEM education, but I also 
believe that we must hold ourselves and our agencies 
accountable for these investments. We need to prioritize and we 
need to focus on outcomes, not outputs or dollars spent. This 
is exactly what we asked you to do in 2010 COMPETES Act, and I 
am happy that you took the task seriously.
    At the same time, the release of this proposal before we 
have the strategic plan in hand makes it difficult for us to 
understand and evaluate all of the decisions and realignments. 
I hope, Dr. Holdren, that you will be able to elucidate more of 
this for us today, and I urge you to prioritize getting us the 
full report. I am supportive of your process and I want to be 
supportive of your outcome, but the longer you wait to share 
your detailed plans and justifications, the greater the chance 
that Member and stakeholder concerns will grow and your 
tremendous efforts will be set back at least a year, if not 
longer.
    That being said, we will have some concerns and 
disagreements about the federal R&D budget proposal, but let me 
be clear. This is a good budget for research, innovation, and 
education. I look forward to working with the President and my 
colleagues in the months ahead to work toward the goal of 
making sure that the fiscal year 2014 authorization and 
appropriations bill that this Congress will eventually pass 
will continue to reflect the need to invest in our future.
    Thank you, Dr. Holdren, for being here today. And thank you 
for letting me go over 51 seconds. Thank you.
    [The statement of Ms. Johnson follows:]

   Prepared Statement of Full Committee Ranking Member Eddie Bernice 
                                Johnson

    Thank you, Chairman Smith, for holding this hearing, and welcome, 
Dr. Holdren. It's good to have you back before the Committee as we 
begin to digest the President's FY 2014 R&D budget proposals.
    I am pleased that the President remains committed to prioritizing 
investments in research and development and STEM education in his 
request. Even in these fiscally challenging times, we must set 
priorities, and there are few more important investments we can make 
than in our Nation's brain power.
    The scientists, engineers, and innovators of today make discoveries 
and develop technologies that generate whole new industries and jobs, 
improve the quality of life and security of our citizens, and keep our 
Nation thriving in a competitive world economy. They also help to give 
our children the grounding in science and technology they will need to 
become the innovators of the future, or simply to be prepared for the 
highly skilled jobs of the future.
    Specifically, I applaud the President's continued commitment to 
keeping the budgets of NSF, NIST, and DOE's Office of Science on the 
sustained upward trajectories initiated in the America COMPETES Act. 
These agencies, among others, help to ensure our long-term economic 
growth through their support for cutting-edge basic research and STEM 
education.
    I am also pleased with the Administration's increased support for 
advanced manufacturing. The last few years have proven that we cannot 
be just a service economy and continue to grow. We must also maintain a 
strong base of American manufacturing. While we will have questions 
about some of the specific initiatives as we proceed with a series of 
agency budget hearings, I firmly believe the key to maintaining and 
rebuilding our manufacturing capacity is through strategic investments 
in advanced manufacturing R&D and workforce development.
    I also support the increased funding to the U.S. Global Change 
Reserach Program, including the purposed increase for NASA's climate 
research. Scientists are telling us that the climate is changing, and I 
don't understand why some of us keep fighting them. The significant 
increase in extreme weather events across the globe in recent years and 
the empirical records of increased global temperatures and greenhouse 
gas concentrations should be evidence enough. I hope we act before it 
is too late to direct our Nation's great brainpower to developing 
solutions to reduce the warming and mitigate the impacts in our most 
vulnerable communities.
    Finally, I want to address the Administration's sweeping proposal 
to reorganize federal STEM education programs. I support the 
Administration's effort to develop a coherent vision and strategy for 
federal investments in STEM. I firmly believe in a federal role in STEM 
education, but I also believe we must hold ourselves and our agencies 
accountable for these investments. We need to prioritize and we need to 
focus on outcomes, not outputs or dollars spent. This is exactly what 
we asked you to do in the 2010 COMPETES Act, and I am happy that you 
took this task seriously.
    At the same time, the release of this proposal before we have the 
strategic plan in hand makes it very difficult for us to understand and 
evaluate all of the decisions and realignments. I hope, Dr. Holdren, 
that you will be able to elucidate more of this for us today, and I 
implore you to prioritize getting us the full report. I am supportive 
of your process, and I want to be supportive of your outcome, but the 
longer you wait to share your detailed plans and justifications, the 
greater the chance that Member and stakeholder concerns will grow and 
your tremendous efforts will be set back at least a year, if not 
longer.
    That being said, we will have some concerns and disagreements 
across the federal R&D budget proposal, but let me be clear. This is a 
good budget for research, innovation, and education. I look forward to 
working with the President and my colleagues in the months ahead to 
make sure that the FY 2014 appropriations bills that this Congress will 
eventually pass continue to reflect the need to invest in our future.
    Thank you, Dr. Holdren, for being here today, and thank you for 
your contributions to ensuring continued U.S. leadership in science and 
technology.

    Chairman Smith. Thank you, Ms. Johnson.
    Also, if other Members have opening statements, they will 
be made a part of the record at this point.
    I am going to introduce our witness, but Ms. Johnson just 
saying that she went over a few seconds reminds me to let Dr. 
Holdren know that if he goes beyond the usual five minutes for 
witnesses, that is fine, too. You are the only witness here, 
and so if you need to take more time, that would be perfectly 
fine.
    Our witness today is the Honorable John Holdren. Dr. 
Holdren serves as the Director of the Office of Science and 
Technology Policy at the White House, where he is both the 
Assistant to the President for Science and Technology and Co-
Chair of the President's Council of Advisors on Science and 
Technology.
    Prior to his current appointment by President Obama, Dr. 
Holdren was a professor in both the Kennedy School of 
Government and the Department of Earth Science at Harvard. 
Previously, he was a member of the faculty at the University of 
California, Berkeley, where he founded and led a graduate 
degree program in energy and resources. Dr. Holdren graduated 
from MIT with degrees in aerospace engineering and theoretical 
plasma physics.
    As our witness knows, he is normally limited to five 
minutes, and as I have just mentioned, please take more if you 
need to. And Dr. Holdren, we look forward to your testimony.

                STATEMENT OF HON. JOHN HOLDREN,

       DIRECTOR, OFFICE OF SCIENCE AND TECHNOLOGY POLICY,

               EXECUTIVE OFFICE OF THE PRESIDENT

    Dr. Holdren. Well, Chairman Smith, Ranking Member Johnson, 
Members of the Committee, I am certainly happy to be here with 
you today to discuss the civilian science and technology 
components of the President's fiscal year 2014 budget.
    The President, in his most recent State of the Union 
address, articulated three overarching priorities: making 
America a magnet for new jobs in manufacturing; unlocking the 
promise of American energy; and educating our citizens with the 
skills and training to fill the jobs of the future. The 
President's 2014 budget supports these three priorities by 
investing strategically in science and engineering research and 
in STEM education.
    We know from decades of experience that these are the kinds 
of investments that will pay off for the Nation in the years 
ahead. They are the kinds of investments that a forward-looking 
nation must maintain even in economically trying times. By 
building and fueling America's engines of discovery, these 
investments promise to expand the frontiers of human knowledge, 
revitalize America's manufacturing sector and promote 
sustainable economic growth, cultivate a clean energy future 
for the Nation, improve health care outcomes for more people at 
lower cost, manage competing demands on environmental resources 
while addressing global climate change, and strengthen our 
national security.
    Importantly, the President's budget does so without adding 
to the federal deficit, balancing increases in some areas with 
decreases in others and doing so strategically rather than with 
the blunt tool of sequestration. The numbers have been out for 
about a week now, so I am not going to take a lot of time going 
through them in detail, but as you know, the President's budget 
proposes $142.8 billion for federal research and development in 
fiscal year 2014. That is an increase of 1.3 percent over the 
2012 enacted level and proposes $69.6 billion for nondefense 
R&D, which would be an increase of 9.2 percent. These increases 
are offset, as I mentioned, by strategic cuts.
    For example, the $71.5 billion proposed for development, 
the D in R&D in the 2014 budget, represents a decline of $3.8 
billion in that category. Because the final 2013 appropriations 
were so recently enacted, the comparisons in the budget and 
those I will make here today are between the 2014 proposals and 
the enacted 2012 appropriation. And I use current dollars, not 
adjusted for inflation. If you want to adjust them for 
inflation, the estimate for inflation between 2012 and 2014 is 
estimated to be 4.0 percent.
    Among the particular highlights of the budget, it provides 
targeted support for three agencies repeatedly identified as 
especially important to the Nation's continued scientific and 
economic leadership: the National Science Foundation, the 
Department of Energy's Office of Science, and the National 
Institute of Standards and Technology laboratories. The 
increase there is 8.0 percent for those three combined. They 
total $13.5 billion.
    The budget provides $17.7 billion to NASA, including funds 
for the continued development of the Space Launch System and 
the Orion Multi-Purpose Crew Vehicle to enable human 
exploration missions to new destinations, including an exciting 
mission in the planning stages that would bring an asteroid 
within range for a human visit.
    Within the Department of Energy, the budget proposes an 
Energy Security Trust to support research into transportation 
technologies to shift our cars and trucks off oil and insulate 
American families from volatile gasoline prices. And it 
provides $379 million for the Advanced Research Projects 
Agency-Energy, or ARPA-E, to support transformational 
discoveries and accelerate development of clean energy 
technology.
    The budget also supports several high-priority interagency 
science and technology initiatives, including the Networking 
and Information Technology R&D Program, the National 
Nanotechnology Initiative, and the U.S. Global Change Research 
Program, as mentioned by the Chairman.
    Finally, the budget proposes $3.1 billion for STEM 
education programs. That is a 6.7 percent increase, and it 
would reorganize the welter of small STEM ed programs spread 
across the mission agencies into about half the current number 
to improve focus, coordination, and evaluation.
    In closing, let me emphasize the long-standing bipartisan 
cooperation that has characterized the Federal Government's 
work to maintain America's global leadership position in 
science, technology, and innovation over many administrations. 
My colleagues and I in the Obama Administration look forward to 
continuing to work with this Committee and the rest of Congress 
to strengthen the Nation's science and technology portfolio in 
order to sustain and expand the economic and other societal 
benefits that that portfolio underpins.
    Thank you very much. I think I am just a few seconds over.
    [The statement of Mr. Holdren follows:]

    [GRAPHIC] [TIFF OMITTED] T0558.004
    
    [GRAPHIC] [TIFF OMITTED] T0558.005
    
    [GRAPHIC] [TIFF OMITTED] T0558.006
    
    [GRAPHIC] [TIFF OMITTED] T0558.007
    
    [GRAPHIC] [TIFF OMITTED] T0558.008
    
    [GRAPHIC] [TIFF OMITTED] T0558.009
    
    [GRAPHIC] [TIFF OMITTED] T0558.010
    
    [GRAPHIC] [TIFF OMITTED] T0558.011
    
    [GRAPHIC] [TIFF OMITTED] T0558.012
    
    [GRAPHIC] [TIFF OMITTED] T0558.013
    
    [GRAPHIC] [TIFF OMITTED] T0558.014
    
    [GRAPHIC] [TIFF OMITTED] T0558.015
    
    [GRAPHIC] [TIFF OMITTED] T0558.016
    
    [GRAPHIC] [TIFF OMITTED] T0558.017
    
    [GRAPHIC] [TIFF OMITTED] T0558.018
    
    [GRAPHIC] [TIFF OMITTED] T0558.019
    
    Chairman Smith. Dr. Holdren, thank you. I don't know how 
you got so much in five minutes. And there will be a lot of 
questions on other subjects as well.
    And I will recognize myself for questions. And really, I 
think I had more observations than questions, and I would ask 
you to comment on them.
    First of all, let me go to NASA. Last December, a National 
Academy of Sciences' review of NASA's Strategic Direction made 
the following observation: ``The Committee has seen little 
evidence that a current stated goal for NASA's Human 
Spaceflight Program--namely, to visit an asteroid by 2025--has 
been widely accepted as a compelling destination by NASA's own 
workforce, by the Nation as a whole, or by the international 
community. On the international front, there appears to be 
continued enthusiasm for a mission to the Moon but not for an 
asteroid mission. The President and the Administration are now 
proposing to capture a small asteroid and bring it closer to 
Earth as a destination for American astronauts.''
    I guess my question here is, it seems to me, that most of 
the scientific community would prefer some form of a return 
mission to the Moon. Why wouldn't we follow their advice?
    Dr. Holdren. Let me say, first of all, that I think the 
situation has changed in a number of important respects since 
the National Research Council report, which you quote. It is 
true that there was a degree of lack of enthusiasm, a lack of 
excitement among some about the initially proposed mission to 
send U.S. astronauts to an asteroid by 2025, but the things 
that have changed and have changed that picture very 
substantially is, number one, NASA has developed an 
extraordinarily ingenious and cost-effective new approach to 
that mission, which entails sending a robotic probe to a small 
asteroid, towing it to a position about 40,000 miles outside 
the orbit of the Moon, and sending U.S. astronauts to visit 
there and to sample it and to return the samples using the 
Space Launch System and the Orion Multi-Purpose Crew Vehicle 
that are already being developed.
    And by the way, we were already planning to visit the 
location to which that asteroid would be towed, an 
equilibration point just beyond the orbit of the Moon--
    Chairman Smith. Right. And Dr. Holdren, I--
    Dr. Holdren [continuing]. As a way station--
    Chairman Smith. Right.
    Dr. Holdren [continuing]. For heading to Mars.
    Chairman Smith. I know--
    Dr. Holdren. So we are now seeing a lot of enthusiasm.
    Chairman Smith. Let me just interject real quick. I know 
this is a new mission, but it never appeared on any of the 
recommended missions by the Academies or by the various panels 
that were asked to make recommendations. So it is a new 
mission. Maybe we need to wait and see how it is received by 
the scientific community. But it just seems to me to be a 
little bit of an afterthought when the first mission didn't get 
supported by the international or by the scientific community. 
But I realize it is new, and we can weigh it as we go forward.
    Another observation is this: as I mentioned in my opening 
statement, I think there are 13 agencies that engage in climate 
change research. There is only one agency, NASA, that is 
engaged in space exploration. Why not let NASA focus on its 
missions in regard to space and let the other 12 agencies focus 
on climate change, since NASA is the only one that deals with 
the space exploration?
    Dr. Holdren. Well, I would say, first of all, that NASA has 
long had a mission to planet Earth, a mission looking down as 
well as a mission looking out, and NASA has unique 
capabilities, as it does in other areas, including aeronautics 
and green aviation, next-generation air traffic control. NASA 
has long been a multi-mission agency with many important 
missions--
    Chairman Smith. That is true but--
    Dr. Holdren [continuing]. And our position is NASA needs to 
pursue all of those missions with the unique resources it has 
for those purposes.
    Chairman Smith. The President--what concerns me is the 
President, I think, over the last year or two has shifted 
something like $300 million from space exploration into climate 
change research, and it just seems to me that one agency that 
does space ought to be allowed to continue to do space and 
focus on that. It may be just a difference of opinion that we 
have.
    My last observation is this, and that is that in regard to 
the National Science Foundation grants, many proposals are 
approved, and only one out of seven is approved, that seem to 
deal with subjects that might not rise to the level or meet the 
standards that most people would think that they should meet. A 
couple of examples would be one study was approved to, I think, 
analyze the animal pictures in National Geographic from 1988 to 
2008. There was another National Science Foundation grant that 
was approved that I think dealt with Chinese women's labor in 
the 16th century or something like that, and there have been a 
number that dealt with situations and cultural changes in 
China.
    I--help me if you will and suggest as to how we might make 
sure that those who decide to approve these grants might be 
persuaded to approve grants that seem to focus more on more 
helpful subjects, more scientific subjects, more basic 
research?
    Dr. Holdren. Well, first of all, let me say, Mr. Chairman, 
that I think there has been a lot of good and important 
research in the social sciences funded by the National Science 
Foundation. And I think you would probably agree. There has 
been research that has strengthened our democracy, that has 
increased the efficiency of our government, that has improved 
our foreign policy.
    Sometimes, it is hard to tell from the title of the project 
what its merit is, but I would also concede that as rigorous as 
NSF's review processes are, there is always room for 
improvement, and I think some of the recent developments that 
have called into question some of the grants in the social 
sciences that NSF has funded will lead to increased scrutiny 
there as to how their review process can ensure that the social 
science work that they support contributes in evident ways to 
the national interest. But we would also not want to undermine 
the basic research dimension of what the National Science 
Foundation does, and we should be careful in the ways we 
intervene not to do that.
    Chairman Smith. Okay. Thank you for that. And I would like 
to continue to discuss the subject with you and maybe come up 
with ways to achieve our common goals in that regard. Thank 
you, Dr. Holdren.
    Ms. Johnson is recognized for her questions.
    Ms. Johnson. Thank you very much.
    Dr. Holdren, I don't think it is any surprise that I am 
very interested in STEM education. And I was enthusiastically 
supportive of looking at the 127 programs coming together from 
a number of agencies to see how we could better concentrate. 
And I do support the goals of the proposal. However, we don't 
know what the program is now. I question about how this will 
all work because we are looking at a budget without the plan, 
and I wonder whether or not we can see the plan soon.
    For K-12 programs that are being transferred, how will the 
mission-specific needs and the decades of education and public 
outreach experience that built up at the mission agencies like 
NASA and preserved by Smithsonian, the development in the 
Department of Education?
    NASA has a long history of engaging students outside the 
classroom, and I have seen so much enthusiasm among students 
and I worry about the loss by transferring these programs, and 
I am specifically worried about consolidating too much in the 
Department of Education, which doesn't have a long history with 
STEM. And so I am really concerned about not knowing what this 
restructuring is and how we can work toward achieving the goal 
of being successful in STEM education.
    Dr. Holdren. Well, that is a big set of questions, Ranking 
Member Johnson, but let me quickly try to address a couple of 
the main pieces of it.
    First of all, the reorganization that the budget contains 
leaves intact a great many programs, still over 100 programs 
spread across the mission agencies. So it by no means has 
taken, or is proposing to take away, all of the diverse 
programs out there. And there has been a very serious effort to 
make sure to preserve the programs that most leverage the 
unique assets of the mission agencies, to preserve the programs 
particularly that reach women and other underrepresented groups 
in STEM, and in the consolidation, to do it in a way where the 
additional resources that end up in the Department of Education 
focused on K through 12; and NSF focused on college, 
undergraduate, and graduate education; and in the Smithsonian 
Institution focused on engagement and outreach outside of 
schools. Those consolidations, those additions of resources, 
will be managed in a way that interact with the mission 
agencies and preserve aspects of the programs that they lost 
that are the most valuable ones.
    And we have commitments from the Department of Education, 
from NSF, from the Smithsonian that they are already doing 
that. They are in touch with the agencies. They are working to 
make sure that this consolidation, which provides more 
opportunities for coherence, for coordination, and for 
evaluation that was difficult with the very dispersed and often 
very small programs that are being consolidated, will all 
happen.
    The second point I would make is the Department of 
Education is committed to expanding the staff dedicated to STEM 
education in order to be able to manage these additional 
responsibilities. And I have spoken with folks at NSF and 
Smithsonian as well, and they are all building up their 
capacity to deal with these additional responsibilities.
    On the Strategic Plan, we have the benefit in conducting 
this reorganization of the progress report on the Strategic 
Plan that was released in 2012 and which was provided to the 
Congress and posted publicly. But I can tell you that the final 
version of the Strategic Plan, which is due in May, is, I 
believe, going to be delivered in May. So you will have it next 
month and be able to evaluate what is being proposed against 
it.
    Ms. Johnson. Well, thank you very much. And I really 
sincerely hope that is something that is workable. In my 
experience--and I am in and out of schools all the time--many 
of the students are excited about external programs that are 
sponsored by NASA and some of the other groups. I have seen 
where there have been Title I teachers, for example, that is 
moving furniture around and not teaching students. So I am not 
so sure about the oversight that--and how close that is done as 
well as the other departments and the Department of Education.
    But thank you. I yield back.
    Chairman Smith. Thank you, Ms. Johnson. The gentleman from 
Texas, Mr. Neugebauer, is recognized for his questions.
    Mr. Neugebauer. Well, thank you, Chairman. And thanks for 
holding this important hearing.
    As you know, Dr. Holdren, the Keystone pipeline would 
deliver an estimated 830,000 barrels of oil a day to U.S. 
refineries and it would alleviate supply pressures that 
contribute to high gas prices enabling Americans to receive oil 
from our best ally in Canada instead of our foreign adversaries 
such as Venezuela.
    Last month, the State Department's 1,500-page 
``Supplemental Environmental Impact Statement,'' the SEIS, 
essentially affirmed the safety and environmental soundness of 
this pipeline, concluding that it was not an impact--it would 
not impact greenhouse gas emissions, which has been a key 
environmental objection. As President Obama's Science Advisor 
with a background in environmental science, I presume that you 
have been involved in reviewing the climate science and 
pipeline technologies associated with the Keystone's pipeline 
decision. Could you describe any official, unofficial, or 
official advice or guidance that you have provided the 
President on or the President of the Administration's science 
agencies in their review of the Keystone pipeline?
    Dr. Holdren. Congressman, first of all, as you know, the 
main locus of that decision ultimately will be the State 
Department. Obviously, the President is interested in it and is 
looking at it, and Secretary Kerry and the President are 
obviously committed ultimately to making the decision that is 
best for the country and best for the American people. The 
advice that I give to the President I give in my capacity as 
the Assistant to the President for Science and Technology, and 
I cannot discuss the content of that, but I can tell you that 
this has not been a major focus of my activity, and I have not 
in fact had any conversations with the President at this point 
about the Keystone pipeline. He might in the future ask me 
about scientific aspects of it, but that has not happened until 
this point.
    Mr. Neugebauer. Well, let me ask you a question then. Do 
you share the perspective of the State Department report that 
the pipeline does not increase the amount of greenhouse gas 
emissions, and if it is, it is a negligible amount?
    Dr. Holdren. We in the Executive Office of the President, 
again, have not been given the responsibility at this point to 
review that. I wouldn't want to preview what we might conclude 
if the President asks us to look more closely at the science in 
that particular assessment.
    Mr. Neugebauer. Have you looked at the science?
    Dr. Holdren. I personally have started to look at the 
assessment, but I have not reached any conclusions.
    Mr. Neugebauer. So another question that I had was when we 
look at, particularly, the satellite program for weather and 
that program has been plagued with a lot of mismanagement. In 
fact, I want to read something here that the JPSS weather 
satellite program is projected to cost, I think like $13 
billion between now and 2028.
    But last year, an independent review team called the 
Administration's management of this program dysfunctional and 
recommended that NOAA refocus the joint JPSS system program on 
its primary mission--weather centers and not climate 
monitoring. Do you agree with the review team's assessment 
about the dysfunctional management priority of the weather 
centers for the JPSS program?
    Dr. Holdren. I agree with the findings that there were 
serious management problems at the time the study was done. 
NOAA and the Commerce Department have taken those 
recommendations very seriously and have already implemented a 
great many reforms in the management of that program. And the 
JPSS is now on schedule, within budget, and has met a number of 
its milestones, and is, actually, ahead of schedule. I think 
that report of the independent review team was extremely 
useful. And again, it has helped put that program back on 
track.
    Mr. Neugebauer. So what are you doing to monitor that?
    Dr. Holdren. Well, you know, Congressman, when I came into 
this position I was told in my confirmation hearing that one of 
my obligations was to fix the polar-orbiting satellite system, 
which was a mess. We spent a year and a half working with all 
the relevant agencies, with NOAA, with NASA, with the 
Department of Defense, and we believe we did basically put in 
place the ingredients of a fix. The IRT report was a course 
correction for the part of it that ended up at NOAA. We are 
monitoring that very closely. I continue to consider it my 
responsibility as the Director of OSTP to make sure that that 
program stays on track. We cannot afford a gap in our polar-
orbiting satellite coverage of weather, and it is our intention 
to avoid a gap.
    Mr. Neugebauer. Do you get periodic reports on the 
progress?
    Dr. Holdren. Oh, yes, absolutely.
    Mr. Neugebauer. Yes. Could you furnish the Committee a copy 
of the most recent report on that?
    Dr. Holdren. Well, I can certainly provide some relevant 
material to you. A lot of the reports that I get are in 
conversations with the Administrator of NOAA, currently the 
acting Administrator, Dr. Kathy Sullivan, and in discussions 
with the acting Secretary of Commerce, Dr. Becky Blank. So I 
can't provide you transcripts of those conversations, but they 
have certainly been taking place frequently.
    Mr. Neugebauer. So you can--
    Dr. Holdren. I can provide you with some other material 
that summarizes our understanding based on those conversations 
and conversations that have gone on with OMB on the state of 
progress. I would be happy to do that.
    Mr. Neugebauer. Thank you.
    Chairman Smith. Thank you, Mr. Neugebauer.
    The gentleman from California, Ms. Lofgren, is recognized 
for her questions.
    Ms. Lofgren. Thank you, Mr. Chairman. And it is great to 
see you, Dr. Holdren. Thank you for your service to our country 
and to science. It is always a pleasure to communicate with 
you.
    And I want to appreciate publicly your efforts with our 
national labs to make sure that they are getting the support 
that they need and, especially, thank you also for your trip 
out to Sandia and Lawrence Livermore last year. It had a 
tremendous boost for morale for the scientists and it meant a 
lot, I think, to all of them.
    I want to talk about--and I know this will probably come as 
no surprise to you--the National Ignition Facility at Lawrence 
Livermore National Lab. And I appreciate that we are trying to 
make sense of the numbers that are coming out of OMB, but here 
is what I think is the case. I mean, in 2012 we had a budget 
for the National Ignition Facility of $486.8 million. The 
Administration requested only $271 million in 2013. As you 
know, we added $32 million in a bipartisan effort here in the 
House, but because we did not get the appropriations bill to 
the finish line, that in the end was not provided to the 
National Ignition Facility.
    I realize that there are apparently efforts to allow for 
direct charging by the National Ignition Facility, but it is 
not clear to me how that is going to work. We spent $5 billion 
building the best tool in the world for this. As you know, the 
National Academy and National Research Council just finished a 
two-year study on the inertial confinement fusion effort and 
determined that it is a national research priority and that the 
NIF is a critical research tool. So here is my question: is it 
the intent of the Administration to eliminate the fusion energy 
program at the National Ignition Facility at Lawrence Livermore 
lab? And if not, how are we going to avoid that result?
    Dr. Holdren. Well, thank you for that question, 
Congresswoman Lofgren. As you know, I am committed, Secretary 
Chu is committed, and I expect, if confirmed, Secretary Moniz 
will be committed to maintaining this valuable facility and 
using it for the variety of purposes for which it was designed. 
As you also know, most of the budget for the National Ignition 
Facility comes from the National Nuclear Security 
Administration because of its relation to the Stockpile 
Stewardship Program, the capability to understand without 
nuclear explosive testing what we need to understand to 
maintain the safety and reliability of our enduring nuclear 
weapons stockpile. That has always been the case. The primary 
source of funding was the weapons program and remains so.
    There has been a small amount of funding that has come from 
the fusion energy side of the operation in DOE, which is then 
based on the proposition that ultimately inertial confinement 
fusion, as being pursued in this facility, might be a viable 
commercial energy source. The fusion budget, however, is now 
under intense pressure because of the rising cost of ITER, the 
International--
    Ms. Lofgren. Right.
    Dr. Holdren [continuing]. Thermonuclear Engineering Reactor 
and the need to maintain a strong domestic plasma physics 
program. And so this year DOE decided that the modest support 
for NIF that it provided from the energy side would not 
continue to be provided--
    Ms. Lofgren. Well--
    Dr. Holdren [continuing]. But that doesn't mean that the 
value of NIF to demonstrating ultimately the possibility of 
harnessing fusion energy in this way will be lost because the 
main thrust of activities there will continue.
    Ms. Lofgren. If I could--and I thank you for that 
reassurance that our intent is actually not to close this 
program. It is confusing, and you have been very helpful in 
finding--get--helping me understand what OMB is saying, but it 
sounds as if the intent is to charge off to users more of the 
cost of the facility and--but the NSF $18 million has now been 
removed and--or DOE--and is it the intent that the NNSA will 
now be charged for their activity?
    And, you know, I guess the other question I would ask--this 
is not something that the facility could decide, but both 
Russia and China are trying to emulate what we did and build 
comparable machines. Is it the intention of the Administration 
to charge off to those two countries experimental work? And 
what are the security implications if we were to do that?
    Dr. Holdren. Well, first of all, Congresswoman, I believe 
that NIF remains the preeminent facility in the world and that 
nothing Russia or China has done up until now really comes 
close to its capabilities. I think the United States will 
remain in the lead in this domain, even though Russia and China 
are barking at our heels, as it were. But we intend to maintain 
our position of strength in the field.
    As far as the details of who is being charged for what, I 
have to tell you we got the Congressional justification from 
OMB at the same time you did--
    Ms. Lofgren. Right.
    Dr. Holdren [continuing]. And we are still trying to 
understand the intricacies of what is reflected there in terms 
of what the numbers--
    Ms. Lofgren. Well--
    Dr. Holdren [continuing]. Add up to. But I can tell you 
about our intention. Our intention is to maintain this as a 
viable, world-leading facility with important applications both 
for our weapons program and potentially to the future of fusion 
energy.
    Ms. Lofgren. I thank you very much, Dr. Holdren, and I look 
forward to continuing to work with you and again appreciate 
your tremendous effort here.
    Chairman Smith. Okay. Thank you, Ms. Lofgren.
    The gentleman from Illinois, Mr. Hultgren, is recognized 
for his questions.
    Mr. Hultgren. Thank you, Mr. Chairman. Dr. Holdren, good to 
see you. According to my count, I think this is the fourth time 
that you and I have had the opportunity to discuss the 
President's science priorities. And I want to start by just 
saying I appreciate you, I respect you, but I have to tell you 
I am disappointed in the President and I am disappointed in 
your office.
    I think the President likes to give great speeches about 
science, but I don't think he actually really understands the 
importance of pure discovery research. And if you look at the 
chart that I have got here in my hand, now we have got up on 
the board, I see no evidence that you or the President have 
given a second thought to the input from this Committee over 
the last several years. This chart tells the same story it does 
as the chart I showed you last year.
    The President favors massive increases to his pet projects 
in the alternative energy sector, and the closer the investment 
gets to pure discovery science, the less he cares about them. 
When it comes to high-energy physics, he once again wants to 
use it as a piggy bank to pay for other things. You said a year 
ago that you are not content for us to leave the future of 
cutting-edge facilities in high-energy physics to the rest of 
the world, but that we were constrained, and that everybody 
knows the budget challenges under which were operating.
    And I look at the President's budget request this year, and 
I find myself thinking, sure, you can use that as a convenient 
excuse to cut high-energy physics yet again, but does an almost 
40 percent increase in ARPA-E and an almost 60 percent increase 
in EERE strike you as constrained approaches? Does yet another 
real-dollar cut to high-energy physics strike you as supportive 
of high-energy physics?
    Dr. Holdren. Well, let me say that, first of all, as I know 
you know, we are in a world of pain when it comes to the 
amounts of money available to us overall. I mentioned in my 
opening remarks that areas that were increased had to be bound 
by areas that were decreased. And difficult choices were made 
in that domain and reasonable people can disagree about what 
the most reasonable pattern of decisions would have been. But 
we are maintaining a world-leading program in neutrino physics 
at the Fermilab, which, of course--
    Mr. Hultgren. Well, let me jump in on that real quickly. 
Particle physics has been singled out by the Administration for 
decreased investment year after year. It lost annual purchasing 
power almost 25 percent in the last decade, which is in direct 
contrast to every other program in the Office of Science. Bill 
Brinkman, in his recent testimony to Congress, stated that we 
have squeezed too hard, yet you and President Obama continued 
to decrease investment in this important area of basic 
research, as is shown again in the latest budget request. How 
is this consistent with maintaining a position of leadership in 
the world in basic scientific research?
    Dr. Holdren. Well, first of all, we have benefited from a 
very high degree of international collaboration in this domain, 
which has saved us some money. The extraordinary work to 
discover the Higgs-Boson, which took place at CERN in 
Switzerland, was carried out with enormously elaborate, 
expensive detectors and teams from the United States. The fact 
that it took place in Switzerland on a machine, much of which 
was paid for by other countries, saved us money, but it did not 
diminish U.S. leadership--
    Mr. Hultgren. Well, I would say it did. You know, I think 
that should have happened here. I think we could have done much 
of that here. To maintain a position of leadership in any 
domain of particle physics, the plan of the U.S. community is 
to define leadership at the Intensity Frontier--where the focus 
of the greatest flux of particles and not the highest energy. 
The LBNE, as you mentioned, is a key facility necessary to 
establishing leadership in the area of particle physics. Why is 
investment decreasing in LBNE in fiscal year 2014 at a critical 
time, again when strong international participation is being 
sought?
    Dr. Holdren. There is funding for the LBNE within the 
Office of Science request for 2014. We continue to support it. 
And we believe that the overall plan that we are working to 
develop for out-year support for facilities will be able to 
support the LBNE. We have no disagreement with you about the 
importance of the Intensity Frontier and--
    Mr. Hultgren. I appreciate your agreement, that just 
doesn't follow up with the budget plans. There are cuts there, 
and I think it really does send a very poor message. When we 
are out there seeking international partners, we are at the 
leadership of neutrino research, and yet we are undercutting 
these programs.
    I just want to show--my time is running out--but the latest 
edition of the Scientific American talks about ``Strange, 
Surprising Neutrino Physics,'' much of the research again that 
is going on with LBNE. But from that, on the cover, they are 
featuring neutrinos. Particle physics has never been more 
exciting. As you mentioned, we have seen remarkable advances 
with the discovery of the Higgs and crucial measurements of the 
properties of neutrinos. These discoveries have had important 
participation from American scientists as you mentioned, but 
they have really been led and enabled by facility investments 
in Europe and China.
    It seems to me that the President's budget plan that you 
are defending cedes American leadership in high-energy physics 
to Europe and China.
    And my time is up, but to just a kind of highlight that 
again, I was looking back through your testimony of last year 
and reading through, and I will point you to the second page of 
your testimony today, the bottom paragraph. It is interesting 
because you had that exact same paragraph in your testimony 
last year, but one thing was changed, and that is, last year, 
you talked about these three jewel-in-the-crown agencies 
referring to NSF, Office of Science, and you have taken that 
out in your most recent, the idea of the jewel-in-the-crown 
agencies. It is the only thing that is removed from that 
paragraph. And my fear is that is exactly what is happening. We 
are taking away by undercutting investment in these important 
programs. We are taking away and ceding our leadership 
opportunity.
    My time is expired. I do appreciate you so much and the 
work you are doing. I know these are difficult times, but this 
is the stuff we have got to do. And so I ask and implore and 
look for ways that we can be working together to strengthen 
this investment and see where we can be taking money again 
where huge increases have happened in certain areas and put it 
back where we absolutely have to be doing it, where the market 
can't do it in basic scientific research.
    With that, I yield back. Thank you, Mr. Chairman.
    Chairman Smith. Thank you. Thank you, Mr. Hultgren. And the 
other gentleman from Illinois, Mr. Lipinski, is recognized.
    Mr. Lipinski. Thank you, Mr. Chairman.
    Thank you, Dr. Holdren, for all the work that you do, it is 
very important that we maintain our leadership in the world on 
science, and I appreciate what you are doing.
    The first thing I want to talk about is NSF's Innovation 
Corps Program. For those who aren't familiar with it, I-Corps 
is essentially an education program developed by serial 
entrepreneurs in Silicon Valley that teaches researchers how to 
develop a viable product from their research while also 
connecting them with potential customers and venture 
capitalists so that they can get feedback on their work. It is 
based on the Lean Startup model, which you can read about in an 
article written by the father of the movement, Steve Blank, 
which is in the May issue--the most recent issue of the Harvard 
Business Review.
    I really believe that I-Corps has the potential to leverage 
our federal investments in research to create new jobs and new 
companies. We have already seen some success despite the fact 
that the program has only been operating for less than two 
years. Now, recently, one of the I-Corps teams--former I-Corps 
teams that went through the program formed a company called 
Neon and was able to secure funding from a private venture 
capital group. I bring this up because the company's current 
product and business model came as a result of their 
participation in the I-Corps program, and they readily admit 
that that is the case.
    Now, recently, the ARPA-E program entered into an agreement 
with NSF to train some of their researchers in the I-Corps 
program. And I think more agencies could benefit as well. And 
this is--those were--are going--getting funding to take part in 
the I-Corps program are researchers who have already received 
federal grants. So today, I am sending letters to NIH and the 
Department of Energy to ask them to consider participating in 
the I-Corps program with some of their research divisions.
    So, first, I want to applaud the Administration's 
commitment to innovative approaches to technology transfer like 
I-Corps. And second, I wanted to get your thoughts, Dr. Holdren 
on the I-Corps program and whether some form of entrepreneurial 
education like I-Corps might make sense at other science 
agencies. I just want to get your perspective on that.
    Dr. Holdren. Well, thank you, Congressman Lipinski. I am 
very grateful for this question, because we in this 
Administration are very strong supporters of NSF's I-Corps 
program and of the broader proposition that there is tremendous 
leverage in measures that can accelerate the transition of 
discovery in laboratories, whether they are research 
universities, laboratories, or national laboratories or 
corporate laboratories. They can accelerate the transition of 
discovery into practical products in the marketplace, meaning 
the national interest. I-Corps is doing, I think, a great job 
of that.
    We are delighted that the I-Corps and ARPA-E are now in 
consultation. We have had a number of other projects and 
programs with the same general aim of trying to foster 
entrepreneurship in the scientific community that will move 
things in this direction. These efforts have included 
components of the STEM education programs we have at the 
college level, where we are encouraging colleges to offer 
courses in entrepreneurship for their scientists and engineers 
to take so that when they go out in the world with their 
advanced degrees, they are not just specialists in their 
particular field of scientific or engineering advancement and 
discovery, but they are knowledgeable about how to translate 
those discoveries into practical products, into companies, into 
new jobs. And I certainly applaud your interest in trying to 
expand this model even further.
    Mr. Lipinski. Thank you. And very briefly, I know there are 
a number of initiatives on advanced manufacturing in the 
President's budget, the total requested $2.9 billion across the 
Federal Government. Can you give a brief overview of the 
Administration's strategy and vision on this revitalized U.S. 
manufacturing in 46 seconds?
    Dr. Holdren. The basic notion, of course, is that advances 
in additive manufacturing, formerly called 3-D printing; 
advances in materials, which we are promoting through what we 
call the Materials Genome Initiative; trying to cut in half the 
time it takes to develop and certify new materials; advances in 
robotics all together provide the possibility of a very 
substantially revitalizing American manufacturing. It is 
already happening. It is already showing results.
    We think there is the possibility to generate more jobs, 
more businesses that are using these advanced technologies in 
the manufacturing domain, and that is going to help in part 
because when you separate the laboratory and the discovery from 
the manufacturing process, as has happened to some extent over 
the past couple of decades, you lose the opportunity for close 
feedback, which tends to improve the manufacturing process as 
it increases its efficiency, lowers costs. As we bring these 
manufacturing activities back to the United States and create 
and keep those jobs here, we are also going to benefit through 
increased efficiencies because of the feedback between research 
activities, development activities in the actual manufacturing 
plant.
    Mr. Lipinski. Thank you very much. And I agree. I concur 
with what the Ranking Member said in her opening statement. We 
need to make more here in America. Thank you for your work on 
that.
    I yield back.
    Chairman Smith. Thank you, Mr. Lipinski.
    The gentleman from Florida, Mr. Posey, is recognized for 
his questions.
    Mr. Posey. Thank you, Mr. Chairman.
    And thank you, Dr. Holdren, for coming to share with us 
today.
    I would like to read for you a couple titles of some 
research grants that the National Science Foundation recently 
funded. Picturing animals in National Geographic for the years 
1888 to 2008 costing $227,000; kinship, women's labor and 
China's economic performance in the 17th through 21st century 
costing $267,000; regulating accountability and transparency in 
China's dairy industry costing $152,000. The press has 
reported, as I am sure you know, many other examples of social 
and political science studies, and the Committee has got 
obviously other examples of questionable studies that cost over 
$600,000. NSF's current spending on social, behavioral, and 
economic science studies is over $250 million a year. And the 
President's request increases this research spending over 70 
percent--over seven percent, I am sorry.
    Within that $250 million, staff says, approximately $10 
million goes toward political science studies. This comes at a 
time when many households are being asked to pay more taxes to 
fund more studies like this. And, you know, the questions our 
constituents beg for answers to are how do we justify such 
questionable studies as a priority for funding?
    Dr. Holdren. Well, I would offer a couple of comments. One, 
I am not qualified to even try to defend every social science 
grant that NSF has ever given, and it is a perilous business 
sometimes to try to determine from the title of a grant, or 
even from a description of it what value it might have as 
fundamental research in social and behavioral sciences.
    What I will say is that there have been many extremely 
valuable--from the clear standpoint of the national interest--
valuable studies funded by NSF in political science and other 
social and behavioral sciences. I will give you one example. 
Elinor Ostrom--the late Elinor Ostrom, the only woman and the 
only political scientist ever to receive an economics Nobel 
Prize, did work showing that local management of resources held 
in common can be effective and sustainable without centralized 
regulatory control. This is a finding that should have 
considerable appeal on both sides of the aisle. She got a Nobel 
Prize for it. She was funded by a series of NSF grants in 
political science.
    Mr. Posey. Well, I think we will all agree that it is 
probably a good subject to study, you know, how our economy 
works, how we make our economy better, but Chinese dairy 
industry regulation, China's economic performance kinship, 
picturing animals--I mean it is just hard to conceive how those 
are important to our national security or our national 
interest.
    And, you know, while I am not advocating we stop all social 
science study spending, I just think it might be appropriate 
that much of that be left to the private sector, and I know the 
recently enacted Coburn amendment requires that the Director of 
the National Science Foundation certify that each and every 
social science study meets the criteria of promoting national 
security or economic interest of the United States of America. 
And I think that is a good and proper filter by which all 
future studies should be considered. Do you agree?
    Dr. Holdren. I respectfully do not agree. I think that is 
too narrowly drawn. I think there have been many beneficial 
results from research funded by NSF in the social, behavioral, 
and economic sciences that have contributed, for example, to a 
better understanding of how our democracy works and how to make 
it stronger, that have contributed to making our government 
more efficient. Saying that the only possible justifications 
are clear economic benefit or national security benefit, I 
think, would leave out a variety of important domains of NSF 
research.
    And I think with respect to the private sector, we know 
that the private sector won't fund--
    Mr. Posey. Can you state just a couple of those for me?
    Dr. Holdren [continuing]. Fundamental research.
    Mr. Posey. Give me some of those other domains, then, so 
maybe I can get a better handle on this bigger picture you are 
talking about.
    Dr. Holdren. Okay. Again, improving the efficiency of the 
United States Government. There has been a huge amount of work 
supported by NSF in that domain--
    Mr. Posey. I think that is an economic interest and the 
national security, quite frankly.
    Dr. Holdren. Well, you can make that argument and maybe it 
is, but I think it is a dangerous thing for the Congress or 
anybody else to be trying to specify in detail what kinds of 
fundamental research the NSF should support. The NSF has 
developed on the whole an enormously respected track record in 
supporting basic research across a wide range of disciplines in 
which it works. And we know the private sector is not going to 
support basic research to the extent that society's interests 
require. The uncertainties are too great, the timescale for 
return too long, the appropriability of the results inadequate. 
This is a responsibility of the government to fund basic 
research, including basic research in social sciences. And if 
you say it has to have a specific application, you are pulling 
the rug out from under the capacity of the NSF to fund basic 
research.
    Mr. Posey. Well, maybe some of my colleagues share my 
feelings and some of them don't, but, you know, the picturing 
of animals in National Geographic costing $227,000, I don't 
think that is a basic--personally--research that American 
taxpayers need to foot the bill for. And I think if there is 
someone who thinks that is beneficial to them, perhaps they 
should start paying $227,000 for picturing animals in National 
Geographic during that period of time.
    Chairman Smith. The gentleman's time--
    Dr. Holdren. Again, it is not my field. I cannot comment on 
what merit or lack of merit that particular project had as 
basic social science.
    Mr. Posey. Well, do you think there should be some 
parameters? Don't you think there--
    Mr. Posey. --should be some--
    Dr. Holdren [continuing]. An elaborate and rigorous review 
process at NSF. That is not to say it couldn't be made better.
    Mr. Posey. Thank you.
    Chairman Smith. Thank you, Mr. Posey.
    The gentlewoman from Maryland, Ms. Edwards, is recognized.
    Ms. Edwards. Thank you, Mr. Chairman.
    And thank you, Dr. Holdren. I want to go back to the 
question of STEM education in the reorganization because I 
actually--I do generally support the idea that we are 
consolidating some of these STEM education programs. I think it 
is important that the NSF play a very functional role in 
identifying what are the criteria for successful programs, what 
kind of guidance teachers need in order to be effective 
teachers.
    And it seems to me that there are a couple of categories 
that are distinguishable in our STEM funding: the sort of pre-
K-12 area, undergraduate, graduate education, and then the sort 
of nonprofit informal sector. And I think that there are 
different things that, for example, our centers in NASA or NOAA 
engage in communities and in developing STEM programs that are 
very distinct from the needs that take place in the K-12 area 
in classroom and in the informal sector.
    And where I have seen a real problem is in the wide range 
of STEM programs in the informal sector, and without sometimes 
a lot of rhyme or reason in terms of the educational value and 
not because they are bad people doing those things but because 
they just don't know what makes a good program and in what 
communities is there a successful program. What are the 
demographic groups that we are targeting so that we make sure 
that the educational value makes sense?
    And so I would hope that going forward you would be able to 
make these distinctions from a budget standpoint so that the 
good stuff that is happening like at Goddard Space Flight 
Center and the role that it plays in our local community in 
working with our school system and the NOAA center, that those 
things aren't wiped out with the responsibility of the 
scientists who are really engaged in the research playing a 
role in developing that program as distinct from these sort of 
informal programs that need, I think, a little bit more 
guidance and coherence.
    And so I wonder if you could tell me if you envision a role 
for, you know, scientists on the ground to participate with 
NSF, with the Department of Education in rolling out effective 
programs in communities and developing materials, because I 
would think that we would not want to lose that kind of 
expertise and that sort of hands-on involvement of people who 
are really, you know, doing real work on a day-to-day basis but 
also engage with our young people in the classrooms.
    Dr. Holdren. The short answer is absolutely yes. I 
appreciate very much the work that these programs at NOAA and 
NASA and for that matter DOE and the Department of Defense that 
have practicing scientists and engineers on the ground 
contributing to the educational process. These have been of 
great value. A lot of these programs have been left intact.
    Again, this reorganization affects about half of the 
dispersed programs that were out there, so half remain in 
place. And the ones that are being consolidated and moved in 
terms of their management to NSF or the Department of Education 
or the Smithsonian Institution, as I mentioned before, all of 
those agencies are determined to continue to tap the expertise 
in the dispersed mission agencies for these purposes. They have 
made that commitment to me. I have been talking to the 
leadership of all of those agencies about it. We are talking 
about it in the meetings of the Committee on STEM Education of 
the National Science and Technology Council, which I chair, 
together with the acting NSF Director, Cora Marrett. And I 
believe it is going to happen. I believe we are going to get 
this right.
    Ms. Edwards. And just to follow up on that, can you also 
tell me about how you plan to continue to engage funding of 
basic research in historically black colleges and universities 
and minority-serving institutions, because then those become 
the filters for graduate--undergraduate, and graduate 
education, and it seems to me that if you really want to get 
students engaged, a diverse population of students engaged, 
that they have to get--there have to be opportunities in those 
institutions that serve them. And so I would hope that there is 
kind of a parallel development of funding of research in those 
institutions with what is happening in this reorganization of 
STEM programs.
    Dr. Holdren. I agree with that as well and I would make two 
further points. One is that in this reorganization we took care 
not to impact any programs connected with historically black 
colleges and universities or other programs that were 
explicitly focused on women or minorities in STEM. We are now 
in the process of conducting a further review to make sure that 
we didn't miss anything in terms of indirect connections that 
might be affected because we are in complete agreement in this 
Administration. The President feels very strongly about this, 
that one of the core elements of our STEM education efforts has 
to be to improve opportunities and access for women and 
minorities, and other underrepresented groups in the STEM 
fields. So we are taking that very seriously.
    Chairman Smith. Thank you, Ms. Edwards.
    he gentleman from California, Mr. Rohrabacher, is 
recognized for his questions.
    Mr. Rohrabacher. Thank you, Mr. Chairman. And thank you, 
Dr. Holdren, for being with us today and having this exchange 
of ideas and views and enlightening us to some things about our 
budget requests that we have to deal with.
    From 1990 through the end of 2013, America will have spent 
$42 billion through the U.S. Global Change Research Program, 
$42 billion. In your testimony, you state that this work is, 
``including but not limited to climate change.'' What other 
global change areas is being worked on and what percentage of 
the $2.8 billion dedicated to these--will be dedicated to these 
non-climate change areas that is coming out of the U.S. Global 
Change Research Program?
    Dr. Holdren. Some of the areas on which the USGCRP focuses 
include water, soils, desertification, deforestation, oceans. 
Please keep in mind there are 13 different agencies involved 
here with a wide variety of missions. They have different 
pieces of the action. It is not by any means limited to climate 
change alone, although I have to say climate change has become 
such a pervasive phenomenon that it is linked in various ways 
with most of these other issues, with soils issues, with water 
issues, with ocean issues, and so on.
    Mr. Rohrabacher. Well, obviously, what we have been 
concerned about here on this end of the debate is that many of 
the things you are talking about--deforestation, water, et 
cetera--that the people in the Departments and agencies perhaps 
have felt that if they really want to get the money for their--
and it is sequestered for their little interest or their 
mission, just attach it to deforestation under climate change 
and water under climate change, et cetera. Do you think there 
is any validity to that worry?
    Dr. Holdren. Basically, I don't.
    Mr. Rohrabacher. Okay.
    Mr. Holdren. That is, I think there is lots of work going 
on under the USGCRP on these domains that is not particularly 
focused on the climate change dimension, but it is also 
important that work go on that does look at the interactions.
    Mr. Rohrabacher. Well, have you--can you give us an example 
of this $42 billion in research that we have had since 1990, 
has there been anything there that has been discovered that 
will in some way alter our ability to live on this planet and 
to survive and to prosper on this planet?
    Dr. Holdren. Oh, absolutely.
    Mr. Rohrabacher. Okay.
    Dr. Holdren. Understanding what is going on in the ocean in 
terms of acidification, other impacts on ocean food chains is 
extremely relevant to our ability to live prosperously on this 
planet.
    Mr. Rohrabacher. Okay. I agree with that. And some people 
tie that to climate change; other people say--
    Dr. Holdren. Well, some parts--
    Mr. Rohrabacher [continuing]. That it is not necessarily as 
a--
    Dr. Holdren. No, there are non-climate phenomena that are 
at work there as well--
    Mr. Rohrabacher. Okay.
    Dr. Holdren [continuing]. And they are important, and our 
improved understanding of them has improved our capacity to 
manage these problems, our capacity to manage forests--
    Mr. Rohrabacher. Okay.
    Dr. Holdren [continuing]. Which is very important to our 
future well-being has been improved under these programs.
    I would be happy to get back to you if you would like with 
a breakdown--
    Mr. Rohrabacher. Well, I think you have done a good job 
right here, and I appreciate your sincerity and your knowledge 
on that.
    Last question: I have, as you are aware, been concerned 
that technology transfers to countries that could someday be 
our enemies is something we should be looking at and that, 
because of concerns that citizens of the People's Republic of 
China, the PRC, have been given broad access to NASA facilities 
and NASA technology, which then enables them to bring back to 
China with them information that was developed and technology 
and data that was developed by our investment. I asked General 
Bolden how many PRC citizens had access to NASA facilities. He 
has provided me with this report, which I would submit for the 
record, Mr. Chairman.
    Chairman Smith. Without objection, so ordered.
    [The information may be found in Appendix 2.]
    Mr. Rohrabacher. Okay. This report states that 293 Chinese 
nationals had access to our critical aerospace centers, and 
just a few weeks ago, we saw that one of these PRC citizens, 
who had broad access to NASA Langley Research Center, was 
founded trying to skip the country with hidden laptops that 
were filled with stolen data. So clearly, whatever protection 
measures we have in place to prevent this sort of thing need to 
be double-checked and looked at and beefed up if they are 
inadequate. And who knows how many times this thing has 
happened that people haven't been caught?
    So what I am asking you today is simply for the record--and 
I know you don't have this information with you now--but could 
I have a commitment from you that you will provide it, and just 
a number of how many PRC citizens have access to our national 
science, space, and technology facilities; those that are run 
by the Federal Government or funded by the Federal Government; 
and information that is broken down by agency and by the nature 
of the access that these people had?
    And if you could--and I know you wouldn't be able to answer 
that now, but if you can have your staff get me that 
information--I think it is important for our national security 
not to have Chinese citizens gathering up information at our 
research centers and our very sophisticated science operations 
and taking that information back to China.
    Dr. Holdren. Well, we will certainly do our best to pull 
that information together for you. It sounds like quite a task. 
I can tell you that only U.S. citizens may work at the Office 
of Science and Technology Policy, so the answer for OSTP is 
zero.
    Mr. Rohrabacher. Okay.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    The gentleman from California, Mr. Swalwell, is recognized.
    Mr. Swalwell. Thank you, Mr. Chair. And welcome, Dr. 
Holdren.
    I am very grateful having--I am a representative for 
Lawrence Livermore National Laboratory and also Sandia National 
Laboratory, and I am grateful that my colleague on this 
Committee, Ms. Lofgren, has been a tireless and fierce advocate 
for our laboratories. And many times Members of Congress are 
advocates for what is in their district and it is hard to look 
outside the district, but I am grateful that Ms. Lofgren has 
been such a champion for the laboratories.
    And I wanted to follow up on some of her questions about 
NIF, because it is very important. And the Administration is 
proposing cuts to NIF and the Inertial Confinement Fusion and 
High-Yield Campaign over fiscal year 2012. And these cuts could 
lead to the ending of research at this recently completed 
world-class facility.
    NIF has long received, as Ms. Lofgren pointed out, 
bipartisan support in the Congress. And it is at Lawrence 
Livermore National Laboratory, which is the largest employer in 
my Congressional district and it houses the world's most 
powerful laser and the preeminent tool in the world for this 
type of fusion research. It is also a critical part of our 
Stockpile Stewardship Program.
    And today, as we look around the world and we look at the 
threat of a nuclear weapon being used against the United 
States, particularly with Iran or North Korea, I think making 
sure that stewardship is taking place with our stockpile has 
never been more important. And as we look forward and to the 
future, this research from NIF can lead to clean, safe, 
plentiful fusion energy.
    And so I believe that the funding reduction for NIF greatly 
puts us at risk for our stockpile stewardship. I am also afraid 
that it is ceding America's leadership when it comes to fusion 
to Russia or China, and France as well. They have also 
accelerated their investments in this area to compete in 
confinement fusion. And I believe this could put the United 
States behind.
    Dr. Holdren, given our sizable investment in NIF, and up to 
this point it has been the $5 billion initial investment and 
the continuing operational investment, do you think we should 
pull support just as this facility is demonstrating its 
potential?
    Dr. Holdren. Congressman, with respect, we are not pulling 
support. I think that the cuts in the NIF budget, as I 
currently understand them, are modest. They are not 
insignificant, but they do not, in my judgment, imperil our 
Stockpile Stewardship Program. They do not imperil the 
continued operation of the facility. If I discovered that the 
contrary were true, I would join you in alarm. Our Stockpile 
Stewardship Program is important. This is a cutting-edge 
facility, which is important to that program and to the 
potential future use of inertial confinement fusion as an 
energy source, and it is not our intention to shut it down.
    Mr. Swalwell. But Dr. Holdren, wouldn't you agree, I mean, 
going from fiscal year 2012 a funding level of $486.8 million 
to fiscal year 2013 a request at $271.7, that that is a sizable 
reduction that will greatly affect the operations at NIF, will 
reduce the staffing at NIF, and will set them behind in their 
fusion goals?
    Dr. Holdren. I think there were a number of changes that 
contributed to that reduction in budget, partly the expanded 
use of the facility as a user facility and some changes in 
bookkeeping, which affected it as well.
    I do want to mention that I was a full-time employee of the 
Livermore lab from 1970 to 1972 and a consultant from '74 to 
'94, including a consultant to the division that built NIF. And 
I have a strong attachment to the importance of that facility, 
and as I said, if I thought that what was going on in the 
budget was imperiling the future use of that facility, I would 
do everything I could to prevent that outcome.
    Mr. Swalwell. And I was also--I was an intern for Ellen 
Tauscher in 2001 in this town. I saw NIF at its inception and I 
see it as my role. And again, I am very grateful that I have a 
colleague up here who also understands the importance not just 
for our nuclear security but also the future of our energy 
security, and I hope we can work together to make sure that it 
does have an adequate funding level so it can continue to make 
progress, and more importantly, reach the goals which I hope we 
are close to reaching there.
    Dr. Holdren. I will certainly continue to work with you and 
with Congresswoman Lofgren to that effect.
    Mr. Swalwell. Great. Thank you, Doctor.
    Chairman Smith. Thank you, Mr. Swalwell.
    The gentleman from Arizona, Mr. Schweikert, is recognized 
for his questions.
    Mr. Schweikert. Thank you, Mr. Chairman.
    Doctor, I am going to back up a little bit and have you 
sort of educate me on some of the process you go through. Your 
substantial portfolio is determining priorities and priorities 
for funding and you make recommendations to the President?
    Dr. Holdren. The process that leads to recommendations to 
the President is a process that involves OSTP, OMB, and all of 
the departments and agencies that have science and technology 
budgets and that process is--
    Mr. Schweikert. And are you the--sort of the--
    Dr. Holdren [continuing]. Multiple phases and back-and-
forth iterations.
    Mr. Schweikert. Doctor, would you consider yourself sort of 
the overall coordinator of such? I mean, you know--
    Dr. Holdren. Jointly with the Director of OMB. I have the 
responsibility in the White House for overseeing those budgets 
and for making recommendations to the President. But again, we 
do it jointly with the departments and agencies.
    Mr. Schweikert. All right. And as you do that, how the 
you--I mean how do you manage--particularly as a scientist as 
you are, how do you manage, say, we are going to work to 
maximize primary research, basic research, and avoid political 
folklore, political goals being moved into those research and 
science allocations of resources?
    Dr. Holdren. The short answer to how I and we manage this 
is with difficulty. This isn't--
    Mr. Schweikert. I mean, it is human nature. I mean, we all 
have our--
    Dr. Holdren. This is in enormous challenge, and one of the 
ways we avoid or try to avoid bias and political fads, as you 
suggest, is by having a great many voices in the process, 
again, voices from the departments and agencies, voices from 
the diverse staff of OSTP. I don't do this by myself.
    Mr. Schweikert. And I would love a side conversation with 
you because I can build you a model saying that is exactly the 
wrong way to do it because of sort of collective folklore that 
we all operate with. I mean, we all have our perception bias.
    But within there, I mean one simple sort of a one-off 
example, I am looking at some of the NOAA funding--what is it, 
the JPSS? And it looks like some of those dollars went to NASA 
but not to manned spaceflight. It has gone into sort of the 
climate monitoring activities of NASA. Is that a--sort of an 
example of, okay, this is our political belief system, this is, 
you know, our goal, and stripping and moving monies around to 
keep financing them?
    Dr. Holdren. No, it was not in the sense that the money 
that left NOAA was money that had supported a specific set of 
climate change monitoring sensors, and NASA now has the 
responsibility for managing that set of sensors so the money 
went with it.
    Mr. Schweikert. Okay. So my understanding, though, the NASA 
resources as prioritized by your Office and the President and, 
you know, the President's budget folks is moving down manned 
spaceflight and moving up, you know, climate monitoring even 
though those resources, as you say, came from NOAA? I mean, am 
I at least getting that balance correct?
    Dr. Holdren. Well, we are doing our best to fund human 
spaceflight and exploration under the instruction of the 
Congress in a manner that simultaneously builds the next 
generation space launch system, multi-purpose crew vehicle that 
provides adequate funding for the development of a commercial 
space industry so that we can get cargo and astronauts to the 
International Space Station. It is a juggling act. I have often 
said in this hearing and elsewhere that NASA has long had the 
problem of 20 pounds of missions in a 10-pound budget.
    Mr. Schweikert. No, just--
    Dr. Holdren. And they continue to.
    Mr. Schweikert. I need to sort of take us back. n the whole 
sort of allocation of grants, resources, it is--how would you--
if I came to you and said I want you to design a system, so 
clean slate, you know, no more sort of the grant review process 
we use today where often the university that has the best grant 
writers and those--because if you look at where much of the 
money goes, there seems to be consolidations and 
concentrations. How would you design a grant system that was 
truly based on trying to fund basic research? What would you do 
different than we do today?
    Dr. Holdren. Well, first of all, I think the key to 
successful funding of basic research is a rigorous peer-
reviewed system. And there are parts of the Federal 
Government's support for research which could use an increased 
infusion of peer-reviewed research as opposed to other 
approaches to allocating funds. And certainly if I were king, I 
would make some modifications in that direction.
    But what I would add to this process is an interactive 
process that also includes the Congress. When we look at NASA's 
budget, we have had clear instruction from the Congress about a 
number of things that NASA's budget absolutely has to do. And 
we take that seriously. We follow to the best of our ability 
within the overall constraints the guidance of the Congress 
on--
    Mr. Schweikert. And I was sort of moving more onto sort of 
the primary basic research, and how do we make sure that 
resources go where we get, you know, maximum benefit to our 
society, the world, and not to, you know, necessarily the best 
grant writer or, you know--you know, it is--I have great 
concern on the benefits we are receiving and the allocation of 
how we do the grants.
    Dr. Holdren. I can only say again that this is a huge 
challenge. I mean the question, for example, of how do you 
compare the leverage of investments in basic biomedical 
research with the leverage of investments in nanotechnology or 
fusion energy? In fact, what we find in many cases--and this is 
the reason we have more crosscutting programs than we used to 
have--is that these fields intersect in interesting ways. And 
some of the most important opportunities now emerging in 
biomedicine are sitting at the intersection of genomics, 
engineering, physics, and measurement.
    Mr. Schweikert. Doctor, dozens of other questions.
    Mr. Chairman, thank you for your tolerance.
    Chairman Smith. Thank you, Mr. Schweikert.
    The gentlewoman from Connecticut, Ms. Esty, is recognized 
for her questions.
    Ms. Esty. Thank you, Mr. Chairman.
    And thank you, Dr. Holdren, for joining us here today. I 
want to return to flesh out a little bit the priorities and the 
approaches on energy. This budget proposes the establishment of 
a new Energy Security Trust, which would support research into 
a range of technologies that would help us transition from oil 
towards more secure alternatives. I understand from what I see 
that the trust would be funded by revenue generated from 
federal oil and gas development. But can you give us any more 
details about how that trust would actually be carried out? For 
example, would the money go directly towards augmenting current 
programs, relevant programs in DOE's Office of Energy 
Efficiency and Renewable Energy or ARPA-E? Or are you proposing 
some kind of new mechanisms or programs for supporting 
research?
    Dr. Holdren. The set of questions around exactly how this 
would work is one that we expect to be in a continuing 
conversation with the Congress about. We would envision a 
variety of approaches, including strengthening the support for 
some existing programs, and providing support for some new 
opportunities not currently being funded. But again, that is at 
an early stage of formulation and we would expect to do it in 
consultation with the Congress.
    Ms. Esty. Following up on that a bit, there has been--the 
proposal has a substantial increase in the ARPA-E budget, and I 
know that was already sort of referenced a little bit earlier. 
Can you flesh out the basis for that? Sort of what 
accomplishments have been achieved to date and if--that would 
justify an increase at a point when obviously we have got 
severe fiscal constraints? And what are the sorts of projects 
that you would contemplate being carried out if this funding is 
approved?
    Dr. Holdren. Well, you know, ARPA-E in its short history 
has developed a strong reputation for thinking outside the box 
and for developing new ideas that can contribute substantially. 
Some of those ideas have been in the domain of energy storage, 
advanced batteries, fuel cells, and so on. Some of them have 
been in the domain of advanced biofuels. Some of them have been 
in the domain of how we can make our grid much smarter and much 
more efficient. I think folks who follow the energy technology 
field closely believe that money invested in ARPA-E has had a 
lot of leverage and so we are proposing to expand it on that 
basis.
    Ms. Esty. I appreciate that. This is an area that is of 
enormous interest. In Connecticut, we have a lot of fuel cell 
energy, other companies that are startups that are very 
interested in working on this. And obviously, basic research 
that can augment what the private sector would try to develop 
is of great interest. But again, we need to be looking at 
accountability.
    If I can switch gears for a moment, you referenced, just a 
moment ago, synergies between different areas, and one I would 
like to turn to is on the bioeconomy, is some of the 
developments that the White House last year released a National 
Bioeconomy Blueprint about supporting economic activity. Again, 
I have the Jackson labs moving into my district from--to 
support efforts that were created in part around state efforts 
at stem cell. We are now building on this at University of 
Connecticut and at Yale. Could you flesh out a little bit more 
about what sort of support there would be for basic R&D as 
contemplated as part of this process, especially updating 
training programs, what is contemplated in this initiative?
    Dr. Holdren. Well, if you look at the range of challenges 
and human needs that we face across the space of health and 
across the space of food and agriculture and across the space 
of materials and sustainable resources, what we found in the 
bioeconomy blueprint is that there is enormous potential at the 
intersection of several branches of biology, including 
genomics, to contribute to really path-breaking advances that 
would affect all of these domains, that would affect health, 
that would affect food and agriculture, that would affect the 
development of new, better, and more sustainable materials.
    And so we envision substantial support for the basic and 
early stage applied research in these domains that is essential 
if you are going to then build economic activity, if you are 
going to develop new firms, jobs, products, and so on. And I 
would be happy to provide you with more detail about that or 
sort of an update on the pace of progress on different aspects 
of the bioeconomy blueprint. But that would probably be more 
detailed than I can run through in a hearing.
    Ms. Esty. Thank you very much and I will follow up. Thank 
you.
    Vice Chairman Rohrabacher [presiding]. Thank you very much. 
Now, I just want to note that here it is. I finally got the 
gavel here.
    Mr. Weber. I see that.
    Vice Chairman Rohrabacher. And Mr. Weber from Texas is 
recognized.
    Mr. Weber. Well, congratulations.
    Dr. Holdren, in your exchange with Congressman Posey 
regarding his questionable--the questionable studies money with 
taxpayer dollars spent, analyzing pictures of animals in 
National Geographic and he named a couple of studies, China's 
dairy industry, you literally made the comment--I wrote it 
down--that it was a dangerous thing for Congress or anybody 
else to specify funding in research. Do you recall that?
    Dr. Holdren. Certainly what I meant to say, Congressman, it 
can be dangerous to try to micromanage funding in basic 
research outside the peer-review process. The peer-review 
process is the backbone of our basic research enterprise, and 
we have done very well with it. That doesn't say it never makes 
mistakes, but I think it is better than any alternative, 
including me or you trying to determine what is good basic 
research in fields not our own.
    Mr. Weber. You went on to say that it was the 
responsibility of government to fund basic research in those 
comments.
    Dr. Holdren. Absolutely.
    Mr. Weber. I have a question about that. Can you give me 
the constitutional basis for that?
    Dr. Holdren. There are lots of things that we do that are 
not explicitly set forth in the Constitution. The 
responsibility of government--in the judgment of many anyway--
is to carry out those activities in the interest of society 
that the private sector is unlikely to carry out for reasons 
that we understand.
    Mr. Weber. Let me give you--
    Dr. Holdren. Basic research we know has been the--
    Mr. Weber. Let me give you Article I, Section 8. The eighth 
enumeration out of 18 of them says ``Congress is to promote the 
progress of science and useful arts by securing for limited 
times to authors and inventors the exclusive right to their 
respective writings and discoveries,'' which would sound like 
patents.
    Dr. Holdren. It would.
    Mr. Weber. So I would like for us, from a policy 
standpoint, to dispel the idea that somehow we have got to fund 
all the studies and that Congress shouldn't be, in your words, 
micromanaging at this various level--at this very low level all 
of these types of studies.
    And I will go back to Mr. Schweikert's comments about he 
will build you a model that says it is exactly the wrong thing 
to put everybody in the room and say that we ought to decide 
exactly what trends we ought to follow, because we are in a 
budget crisis now, in my opinion, because we have just said, 
look, we can research anything we want, we can fund studies to 
do anything we want, whether they are the dairy habits over in 
China, no matter what they are.
    So I just want to make sure that from an agency standpoint, 
you being one of the leaders in the agency, I hope that you all 
have an attitude and an understanding that it is Congress' 
purview to get involved in this, and it is our responsibility 
to make sure that we spent the American taxpayer dollars 
properly and correctly and wisely. That just kind of bothered 
me when you said that.
    And let me go down to a specific question. Gasoline prices 
and regulations, as you know, the EPA has recently proposed new 
gasoline regulations, the Tier 3 level--I am sure you are 
familiar with that--that could, in fact, raise gas price--cause 
gas prices to rise by $.10 on the gallon and cause multiple oil 
companies to close, multiple refineries to close. Even though 
the EPA did not complete a congressionally mandated study--here 
we are talking about Congress getting involved--on whether 
those rules are even necessary.
    So being an advisor to the President, Dr. Holdren, what--
can you tell us what specific provisions in the President's 
budget will help reduce gas prices this year and get America--I 
am going to have a couple questions for you--and get some 
relief at the gas pump and help those who are hurting, working 
families? What specific provisions in his budget have you 
recommended?
    And secondly, do you agree that regulations of those type 
result in higher joblessness and higher energy costs, which, in 
fact, impact Americans' health negatively, a lot of worry they 
can have the kind of health checkups and preventative 
maintenance, if you will, that they need.
    So what, specifically, have you seen or proposed in the 
President's budget to help alleviate some of those higher fuel 
costs? And do you agree that those kinds of EPA regulations 
actually negatively impact Americans' health?
    Dr. Holdren. That is a multipart question. Let me first say 
I am very well aware that Congress is responsible for 
determining the levels of funding--
    Mr. Weber. I think we have established that.
    Dr. Holdren [continuing]. Across the entire government. I 
would never dream of disputing that.
    Mr. Weber. Okay.
    Dr. Holdren. My previous point was whether it was valuable 
for Congress, at a very fine level of detail, to try to 
substitute for the peer-review process in individual grant-
making. There is no question that Congress determines how much 
money NSF gets. Congress can determine how much of that goes to 
social--
    Mr. Weber. Yes, we have established that--
    Dr. Holdren [continuing]. And behavioral sciences--
    Mr. Weber [continuing]. But we are running out of time, so 
please go on to the other two questions.
    Dr. Holdren. And again--but I don't want to be 
misunderstood on that point.
    Secondly, with respect to EPA regulations, with respect to 
the recent proposals, there are real differences of opinion as 
to what the impact on the price of gasoline would be. Some 
people have said $.01, some people have said $.09, and there 
needs to be more analysis to determine what that would be. I do 
not accept the general proposition that EPA regulations cause 
adverse impacts on the American population's health. We work 
very hard, EPA works hard, we work hard in the Administration 
reviewing their proposed regulations to ensure that the 
opposite is true.
    Mr. Weber. Their regulations, Dr. Holdren, cause 
joblessness. That does not have an adverse effect on Americans?
    Dr. Holdren. If their regulations did cause joblessness, 
that would have an adverse effect. However, in many cases, 
regulations create new jobs even while impacting jobs in 
another sector. And in fact, any intervention the government 
makes tends to add jobs some places, cut jobs other places. You 
have to do a very careful analysis of the net effects before 
you conclude that regulation has cost American jobs. And of 
course the aim of the regulation is to reduce air pollution, 
which we know adversely impacts the health of Americans, 
increases our national health care costs, and is devoutly to be 
reduced if we can do so in a cost-effective manner.
    Mr. Weber. And that is--
    Vice Chairman Rohrabacher. The gentleman's time--
    Mr. Weber. Yes, I would love to discuss more, and I am 
sorry, Mr. Chairman, I have gone over my time, but I yield 
back. Thank you.
    Vice Chairman Rohrabacher. All right. We next have Ms. 
Bonamici from Oregon.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    Dr. Holdren, thank you for your testimony. Another 
encouraging aspect of the President's budget that you pointed 
to in your testimony is a focus on manufacturing innovation, 
particularly through partnerships between universities, 
community colleges, and the private sector. In my State of 
Oregon, we have the Oregon Nanoscience and Microtechnologies 
Institute, also known as ONAMI, where the University of Oregon, 
Portland State University, Oregon State University, and other 
public and private sector partners collaborate to bring 
innovative ideas to the marketplace.
    Also important in Oregon are the Manufacturing Extension 
Partnerships, or MEPs, that you mentioned in your testimony. I 
recently met with a business that received about $50,000 in MEP 
funds in partnership with the Oregon MEP. They used that 
funding to hire 11 new workers who each earn about $60,000. So 
in this kind of situation, the Federal Government sees a quick 
return on its investment through tax revenues from these new 
jobs and from a small company experiencing meaningful growth.
    So can you talk about the multiplier effect that these 
types of partnerships which leverage public funds by pairing 
them with private funds have in the context of the federal 
budget and how significant are these programs when we are 
facing severe budgetary constraints?
    Dr. Holdren. Well, I would start by saying that the great 
advantage of partnerships is to leverage government funds, 
combining them with private sector funds and in some cases with 
philanthropic funds to get a much larger impact than the 
government could ever do alone. But even more important than 
that is the leveraging of insight that resides in the private 
sector with the kinds of capabilities and insights that reside 
in national laboratories and in government-funded research 
universities.
    We have been promoting these kinds of partnerships across a 
wide range of activities ranging from STEM education where we 
have the Educate to Innovate Initiative that raised three 
quarters of $1 billion in private and philanthropic money, in 
part to bring practicing scientists, mathematicians, and 
engineers into classrooms to work with teachers to improve 
curriculum and to provide role models, who were also seeing a 
lot of success in the domains that you discussed, including 
particularly enabling small business to have access to 
facilities that enable them to develop new products and 
services that they would never be able to develop that they 
didn't have access to these facilities that they are too small 
to afford on their own.
    And we see this happening in the nanotech domain where 
there are nanotech startups that have been able to use the 
nanotech facilities of our research universities and our 
national labs to develop new products, which then create jobs 
and economic growth going forward. I think it is a terrific 
model, and I am delighted that so much of it is working well 
for Oregon.
    Ms. Bonamici. I thank you so much. And I want to ask 
another question as well. On the topic of climate and weather 
monitoring, I wanted to ask about the enhanced focus on weather 
priorities. I have some coastal area in my district, and 
weather monitoring can be the key to the livelihood of mariners 
who rely on data from the National Weather Service when they 
are preparing to leave the harbor. Recently, NOAA stated that 
they planned not to repair a monitoring buoy, and I contacted 
them. The district was very concerned about that.
    I am glad that the President's plan to focus on weather 
issues is highlighted here. To what extent is this renewed 
focus on weather monitoring a reflection of the growing 
understanding that global climate change is leading to more 
severe weather events, as noted by the 2013 National Climate 
Assessment Draft?
    Mr. Holdren. Well, I think you have put your finger on it. 
We are experiencing more extreme weather of a wide variety of 
kinds, and that makes it all the more important to be able to 
predict when and where that extreme weather is going to strike, 
and that requires, obviously, increased investments in 
prediction capabilities ranging from buoys, satellites, other 
kinds of monitoring stations to high-speed computing, and the 
models run on high-speed computers in order to be able to 
translate monitoring data into accurate forecasts. We are 
putting very heavy emphasis on that because the livelihoods, 
the economic well-being, and the health of the American people 
depend on accurate weather forecasts, as you note.
    Ms. Bonamici. Absolutely. And my time is about to expire. 
Thank you very much, Mr. Chair. I yield back.
    Vice Chairman Rohrabacher. Thank you very much. And for a 
new Member of the Committee, you are certainly an active Member 
of the Committee, and I have noticed that very much over the 
last month. You have got something to say.
    All right. And next, we have from the home State of 
California, Mr. Takano.
    Mr. Takano. Takano.
    Vice Chairman Rohrabacher. Takano, pardon me.
    Mr. Takano. You are forgiven.
    Vice Chairman Rohrabacher. But he comes from a district 
very close to my own, so you may proceed.
    Mr. Takano. I thank my distinguished colleague, who hails 
from an area 45 miles to the south and west.
    So Dr. Holdren, welcome. My question relates to--I had the 
privilege of visiting during the most recent spring recess the 
Dryden facility, now renamed, I think, Neil Armstrong facility 
out at Edwards Air Force Base and was able to take a look at 
the collaboration between NASA and, I believe, it was Boeing or 
one of the aerospace firms.
    You know, a lot of talk about the involvement of government 
and private industry in manufacturing, but there was some 
research jointly being done on a new type of aircraft, and 
there is some promise of this aircraft being significantly more 
fuel efficient. I can't remember the name of the--the aircraft 
looks like somewhat like a triangle, like a flying wing. I 
forget the name of it. But can you just comment on how critical 
this sort of joint research with--between industry and NASA has 
been to develop our aerospace industry in this country and 
keeping it ahead?
    Dr. Holdren. The short answer is that NASA is working the 
aeronautics domain, and its partnerships with the private 
sector have been extremely important. You know, a striking 
thing that people are aware of is that the fuel economy of jet 
airliners has improved by an enormous factor over the last 35 
years. The fuel consumption per seat mile is now much less than 
half in modern aircraft of what it was 35 years ago, and that 
is the result, in a very substantial measure, of NASA's 
aeronautics research in their partnerships with the private 
sector. We are seeing that moving forward in the kinds of 
projects that you visited at the Neil Armstrong facility.
    I said before that we need to be very careful when we think 
about NASA's budget and imagine that the only element of NASA's 
budget that matters is human space exploration or robotic 
probes or space telescopes. Those are all enormously important 
and we support them, and we support them to the extent that our 
overall budget permits, but it would be a big mistake to allow 
NASA's programs in aeronautics to wither. It would be a big 
mistake to allow NASA's programs in Earth observation to 
wither.
    Mr. Takano. Dr. Holdren, if I am not mistaken--and this may 
not be either one of our areas--but it seems to me that the 
building of large commercial aircraft is an important part of 
America's balance of trade. It is a major export for us. And it 
seems to me that there has been an intricate interlocking 
between government/industry, and I see some of my colleagues on 
the other side of the aisle often criticizing the government 
for being involved in picking winners and losers in the domain 
of, say, alternative energy. But this seems to be an example 
that all Americans would agree has been very vital.
    I am struck that the aeronautics budget is a very small 
part of the overall NASA budget. Is there any thought the 
Administration might want to increase this budget line?
    Dr. Holdren. Well, we are constantly looking at the 
balance, as I said in response to some other question, it is 
challenging because there is not enough money overall to do 
everything that we should be doing. I mean, I have said in 
other forums already this year--I think this President's budget 
for fiscal year 2014 is a good budget for science and 
technology under the fiscal circumstances we face, but it is 
not the budget that I would want to have in better times.
    And in better times, there would be more money for human 
space exploration, there were be more money for planetary 
science, and there would be more money for aeronautics. I am 
not going to second-guess on the fly the current balance in 
NASA, which was carefully arrived at over the long sort of 
interactive process that I described, but as a general matter, 
I think society would benefit if we could invest more in this 
and many other domains--
    Mr. Takano. Well, very quickly because I know the 
distinguished Chairman is interested in our competition and 
potential rivalry with the People's Republic of China. Do we--
and they rapidly are trying to develop their own aviation and 
aeronautics industry. Do we know how much by comparison that 
they are investing in research in this area?
    Dr. Holdren. We do have some data on the pattern of Chinese 
research investments. I could get back to you on that.
    Mr. Takano. Sure, please.
    Dr. Holdren. I don't have it on the top of my head what 
they are investing in this area. It is clear that we are still 
well ahead. That is where I would like to stay.
    Vice Chairman Rohrabacher. Thank you very much.
    Next, we have Mr. Veasey from Texas.
    Mr. Veasey. Dr. Holdren, thank you. I wanted to ask you a 
specific question about advanced manufacturing. There was a 
really good article last year in the Wall Street Journal about 
German companies coming over to America to train workers here 
to work very highly skilled manufacturing jobs, jobs such as, 
you know, various machinist type jobs, robotics specialists. 
One of the things that we talk a lot about here in Congress and 
people are talking about nationally--you have talked about it--
is STEM education, which is very, very important.
    But I do believe that there are a lot of kids that are 
graduating from high school that don't necessarily have a STEM 
background, but they are ready to get to work if they can find 
a good job. And last year, about 600,000 of these highly 
advanced manufacturing jobs went unfilled, largely because the 
kids graduating from the high schools didn't have the skill set 
to go work some of these jobs that start off at $22, $24 an 
hour. Can you talk a little bit about the Administration's 
long-term goal for sort of revitalizing, you know, 
manufacturing in this particular area and how it fits into the 
budget?
    Dr. Holdren. Congressman Veasey, that is a great question, 
and it is one that we have been working on very hard. A couple 
of components to it: one, we have a program around redesigning 
the high school experience in this country so that kids 
graduating from high schools are better prepared for some of 
the highly skilled jobs of the 21st century. We are also 
working with community colleges and partnerships between 
community colleges and the private firms, the industries in the 
same region with the community college to develop community 
college curricula that prepares students for precisely the jobs 
that exist in the companies in their particular regions. This 
is an extremely important part of our overall STEM ed strategy.
    Mr. Veasey. Do you see in the future it being talked about 
more? And I understand why people want to talk more about the 
STEM and why that has gotten the attention that it has gotten, 
but I think that this is an area--and I think that you would 
agree--that we should, you know, definitely encourage our young 
people to--and even parents to sort of think about more.
    Dr. Holdren. I completely agree, and the President agrees.
    Mr. Veasey. Thank you.
    Vice Chairman Rohrabacher. And we have Ms. Wilson from 
Florida.
    Ms. Wilson. Thank you, Mr. Chair. Just a follow-up a little 
bit to Mr. Veasey's concerns. I am concerned about the 
reduction in informal science education activities and budgets 
in many agencies including NSF. A lot of these hands-on 
afterschool activities are what get very young children excited 
about science. I am a former school principal and that is 
important.
    Can you elaborate on the new role of the Smithsonian in 
coordinating informal STEM education efforts under the STEM 
reorganization proposal? Is there an existing office and staff 
who will--new capacity--where new capacity have to be built at 
the Smithsonian? How much of the 2014 request of $25 million is 
for capacity-building versus for direct funding of the programs 
transferred from the mission agencies?
    Dr. Holdren. Congresswoman Wilson, I can actually provide 
you those numbers in detail. I was just in touch yesterday with 
the folks at the Smithsonian who are running this effort. There 
is an Assistant Secretary for Education and Outreach in charge 
of this effort. They have actually gone through a very 
extensive process to develop their ideas about how this $25 
million would be used. I actually have a detailed breakdown of 
the numbers, how much goes to information technology, how much 
goes to revitalizing education activities, broadening access, 
excelling in related research.
    But they have a series of goals. The first goal is around 
the creation of content in programs. That means working with 
these agencies that historically have been providing the kinds 
of activities you are talking about to improve the content and 
the programs in these domains. The second goal is to develop 
and maintain the infrastructure to deliver that content, 
including creating a portal for the transfer of knowledge about 
these kinds of activities as accessible to everybody. The third 
goal is creating community teachers and student agency 
partnerships that will create learning communities that figure 
out how to do this better. The fourth goal is evaluation of 
these efforts.
    And they have already at the Smithsonian existing 
activities in all of these categories which they are going to 
build on and expand. So it really is a well-thought-out effort, 
and it is an effort in which they are already in touch with 
most, if not all, of the agencies that have been engaged in 
some of these smaller programs that are being consolidated.
    Ms. Wilson. Thank you.
    Vice Chairman Rohrabacher. Well, thank you very much. And 
first of all, I would like to thank Dr. Holdren for his 
valuable testimony and the Members have asked some questions. 
We are hopeful that they will be--some of their requests will 
be complied with in writing and as soon as you can. It might 
take some time, but, you know, even the question I asked, it 
would take some time to compile.
    But we thank you for being here and giving us your frank 
opinion. Would you--Ms. Johnson, would you like to have a 
closing statement? Go right ahead.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    I just wanted to say that there are questions that I will 
be submitting. I want to thank you, Dr. Holdren, for being 
here, but it leads to questions I will be submitting for the 
record.
    Vice Chairman Rohrabacher. Thank you very much. And if any 
other Members of the Committee have additional questions, we 
will ask that you respond to those questions in writing. And 
the record will remain open for two weeks for additional 
comments and written questions.
    Just a couple little things--I can't help myself, just a 
thought. Of the 13 agencies that we are talking about in terms 
of climate change research, we are spending $2.7 billion over 
those 13 agencies for climate change research, and we are only 
spending $80 million for weather research, just a thought. 
Okay.
    The other thing is that many of us are concerned that peer 
review--and Eisenhower warned us about this in his farewell 
address, that peer review in the science community can become 
clique review and that we have an academe--and I know when 
Henry Kissinger was asked about how horrible the spirit of the 
beating down your opponent was in politics, he said, well, it 
is nothing like academe. And, you know, you have these things 
both in the academic world and then the political world where 
we need to respect each other's opinions, and we need to 
realize that, you know, we are not calling anybody names by 
simply focusing on what we believe is important.
    For example, you talked about the fuel consumption per mile 
of our airplanes, and I think that is an important part to make 
up. And I know that you are very proud of the research that has 
taken place by our government. Some of us look at it and go, 
oh, the fuel consumption per mile, maybe that has something to 
do with the deregulation of the airlines that it would seem now 
that our airplanes are full, when before deregulation they were 
flying with 10 percent of their seats--10, 20, and 30 percent 
of their seats vacant.
    So it--you know, it all depends on how you are looking at 
something. But both sides are right obviously. Both sides have 
an assessment. Our airlines are becoming more efficient.
    And so, anyway, I want to thank you for presenting your 
side and the Administration's side of this, and your answers 
have been enlightening and provocative.
    And with that, I say that this hearing is adjourned.
    [Whereupon, at 12:05 p.m., the Committee was adjourned.]


                               Appendix I

                              ----------                              



                   Answers to Post-Hearing Questions


[GRAPHIC] [TIFF OMITTED] T0558.020

[GRAPHIC] [TIFF OMITTED] T0558.021

[GRAPHIC] [TIFF OMITTED] T0558.022

[GRAPHIC] [TIFF OMITTED] T0558.023

[GRAPHIC] [TIFF OMITTED] T0558.024

[GRAPHIC] [TIFF OMITTED] T0558.025

[GRAPHIC] [TIFF OMITTED] T0558.026

[GRAPHIC] [TIFF OMITTED] T0558.027

[GRAPHIC] [TIFF OMITTED] T0558.028

[GRAPHIC] [TIFF OMITTED] T0558.029

[GRAPHIC] [TIFF OMITTED] T0558.030

[GRAPHIC] [TIFF OMITTED] T0558.031

[GRAPHIC] [TIFF OMITTED] T0558.032

[GRAPHIC] [TIFF OMITTED] T0558.033

                              Appendix II

                              ----------                              


                   Additional Material for the Record



 Letter to Hon. Dana Rohrabacher, Chairman, Subcommittee on Oversight 
   and Investigations, Committee on Foreign Affairs, From Charles F. 
      Bolden, Jr., Administrator, National Aeronautics and Space 
                             Administration

[GRAPHIC] [TIFF OMITTED] T0558.034

[GRAPHIC] [TIFF OMITTED] T0558.035

[GRAPHIC] [TIFF OMITTED] T0558.036

[GRAPHIC] [TIFF OMITTED] T0558.037

[GRAPHIC] [TIFF OMITTED] T0558.038

[GRAPHIC] [TIFF OMITTED] T0558.039


                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
